BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Ronald Pitts
u. State of Ohio, was sent via Next Day Service to the
U.S. Supreme Court, and via email service to the
following parties listed below, this 28th day of January,
2021:
Alyssa Breyman, Esq.
Assistant Prosecuting Attorney
700 Adams Street
Lucas County Courthouse
Toledo, Ohio 43604
419-213-4700
abreyman@co.lucas.oh.us

Counsel for Respondent
James R. Willis, Esq.
Counsel of Record
Clarissa A. Smith, Esq.
7 5 Erieview Plaza
Suite 108
Cleveland, OH 44114
(216) 523-1100
jrwillis-barrister@sbcglobal.net
clarissa@casmithlawoffice.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
I Suite l 02

J

Cincinnati, Ohio 45249

Franklin Square

1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 28, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

~ Chf- crl'.l <H
( +V1,,, l'J .

Date:

NotaryPubli~
[seal]

/5~
1

